No. _____
In the

Supreme Court of the United States
__________________

BRIAN RUSSELL TURNER,
Petitioner,
v.
THE STATE OF MISSISSIPPI,
Respondent.
__________________
On Petition for a Writ of Certiorari from
the Supreme Court of Mississippi

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
(f) 407-622-1511
robertsirianni@brownstonelaw.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED FOR REVIEW
Whether the Supreme Court of Mississippi Erred in
Denying Petitioner’s Claim that the Prosecution
Withheld Exculpatory Evidence Pursuant to Brady v.
Maryland and Arizona v. Youngblood.

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceedings before this Court are
as follows:
Brian Russell Turner.
The State of Mississippi.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioner
Brian Turner has no parent corporations and no
publicly held company that owns 10% or more of any
entity.
LIST OF PROCEEDINGS
CIRCUIT COURT OF TISHOMINGO COUNTY,
MISSISSIPPI
Cause No. CR18-187
STATE OF MISSISSIPPI v. BRIAN RUSSELL
TURNER
Judgment dated 10/08/2019.
Unpublished opinion.
CIRCUIT COURT OF TISHOMINGO COUNTY,
MISSISSIPPI
Cause No. CR18-187
STATE OF MISSISSIPPI v. BRIAN RUSSELL
TURNER
Order dated 11/19/2019 denying Petitioner’s Motion for
J.N.O.V. or, in the Alternative, Motion for New Trial.
Unpublished opinion.

iii
SUPREME COURT OF MISSISSIPPI
Case No. 2019-KA-01724-SCT
BRIAN RUSSELL TURNER v. STATE OF
MISSISSIPPI
Order dated 06/17/2021 affirming the Circuit Court’s
decision denying Petitioner’s sentence and Motion for
J.N.O.V.
Turner v. State, No. 2019-KA-01724-SCT, 2021 Miss.
LEXIS 157 (June 17, 2021)

iv
TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . iv
INDEX OF AUTHORITIES. . . . . . . . . . . . . . . . . . viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN THIS COURT . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. Bringing the Claims to Federal Court . . . 3
B. Concise Statement of Facts Pertinent to
the Questions Presented . . . . . . . . . . . . . . 3
C. Procedural History . . . . . . . . . . . . . . . . . . . 6
REASONS TO GRANT THIS PETITION. . . . . . . . . 9
I.

This Court Should Find that The Mississippi
Supreme Court Erred When It Upheld the
Judgment of the Circuit Court Despite the
State Having Withheld Important
Exculpatory Evidence from Mr. Turner
Under Brady v. Maryland . . . . . . . . . . . . . . . . 9

v
A. The Evidence at Issue is Favorable to Mr.
Turner Because it is Both Exculpatory
and Impeaching . . . . . . . . . . . . . . . . . . . . 10
i. The body camera footage and dash
camera footage constitute exculpatory
evidence. . . . . . . . . . . . . . . . . . . . . . . . 10
ii. The body camera footage and dash
camera footage constitute impeaching
evidence. . . . . . . . . . . . . . . . . . . . . . . . 12
B. The Evidence at Issue was Willfully or
Inadvertently Suppressed by the State . . . 13
C. Mr. Turner was Prejudiced by the
Withholding of the Relevant Evidence . . . 15
II.

Alternatively, This Court Should Find that
The Mississippi Supreme Court Erred When
It Upheld the Judgment of the Circuit Court
Despite the State Having Withheld
Important Exculpatory Evidence from Mr.
Turner Under Arizona v. Youngblood . . . . . 16
A. The Video Evidence Is At Least
Potentially Exculpatory . . . . . . . . . . . . . . 17
B. The Exculpatory Value of the Evidence
was Apparent Before the Evidence was
Lost or Destroyed . . . . . . . . . . . . . . . . . . . 18
C. The Video Evidence was Lost or
Destroyed in Bad Faith . . . . . . . . . . . . . . 18

vi
D. No Comparable Evidence Could be
Obtained by Reasonably Available Means
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
III.

This Court Should Grant Mr. Turner’s
Petition to Clarify the Legal Implications of
a Law Enforcement Officer’s Willful Decision
Not to Utilize Their State-Issued Body
Camera in Contravention of Relevant
Department Procedures . . . . . . . . . . . . . . . . 22

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX
Appendix A Opinion in the Supreme Court of
Mississippi
(June 17, 2020) . . . . . . . . . . . . . . . . . . 1a
Appendix B Order Denying Motion for J.N.O.V. or,
in the Alternative, Motion for New
Trial in the Circuit Court of
Tishomingo County, Mississippi
(November 19, 2019) . . . . . . . . . . . . . 43a
Appendix C Cross-Examination of Derrick Earnest
at Trial in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 45a
Appendix D Cross-Examination of James Guthery
at Trial in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 53a

vii
Appendix E Cross-Examination of Jason Moore at
Trial in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 75a
Appendix F Closing Argument by Mr. O’Neal of
the Prosecution in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 93a

viii
INDEX OF AUTHORITIES
Cases
Arizona v. Youngblood,
488 U.S. 51, 109 S. Ct. 333,
102 L. Ed. 2d 281 (1988) . . . . . . . . . . . . . . . passim
Brady v. Maryland,
11 373 U.S. 83 (1963) . . . . . . . . . . . . . . . . . passim
Giglio v. United States,
405 U.S. 150,
92 S.Ct. 763, 31 L.Ed.2d 104 (1972). . . . . . . . . . 12
Grable & Sons Metal Products, Inc. v. Darue
Eng'g & Mfg, 545 U.S. 308 (2005) . . . . . . . . . . . . 1
Hartfield v. City of Urbana,
No. 21-2045, 2021 U.S. Dist. LEXIS 134915
(C.D. Ill. July 19, 2021) . . . . . . . . . . . . . . . . . . . 11
Hentz v. State,
489 So.2d 1386 (Miss.1986) . . . . . . . . . . . . . 18, 20
Holdren v. Legursky,
16 F.3d 57 (1994) . . . . . . . . . . . . . . . . . . . . . . . . 17
Kyles v. Whitley,
514 U.S. 419 (1995). . . . . . . . . . . . . . . . . . . . 10, 15
Napue v. Illinois,
360 U.S. 264, 79 S.Ct. 1173,
3 L.Ed.2d 1217 (1959) . . . . . . . . . . . . . . . . . . . . . 12
Skinner v. Switzer,
562 U.S. 521, 131 S.Ct. 1289,
179 L.Ed.2d 233 (2011) . . . . . . . . . . . . . . . . . . . . 10

ix
State v. McGuire,
2018-Ohio-1390 (Ct. App.) . . . . . . . . . . . . . . . . . 12
State v. Porter,
145 Haw. 262, 450 P.3d 1287 (Ct. App. 2019) . . . 15
State v. Rogers,
2020 UT App 78, 467 P.3d 880
(Ct. App. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Strickler v. Greene,
527 U.S. 263, 119 S.Ct. 1936,
144 L.Ed.2d 286 (1999) . . . . . . . . . . . . . . . . . . . . 10
Turner v. State,
No. 2019-KA-01724-SCT,
2021 Miss. LEXIS 157 (June 17, 2021) . . . . . 1, 14
United States ex rel. Almeida v. Baldi,
195 F.2d 815 (3d Cir. 1952) . . . . . . . . . . . . . . . . . 9
United States v. Aguirre-Cuenca,
No. 3:19-cr-00141, 2020 U.S. Dist. LEXIS
197320 (W.D.N.C. July 17, 2020). . . . . . . . . . . . 24
United States v. Bagley,
473 U.S. 667 (1985). . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Brown,
No. 2:17-cr-00058-JCM-VCF-1,
2017 U.S. Dist. LEXIS 215420
(D. Nev. Aug. 14, 2017). . . . . . . . . . . . . . . . . . . . 24
United States v. Gibson,
366 F. Supp. 3d 14 (D.D.C. 2018) . . . . . . . . . . . . 23

x
United States v. Griffin,
2018 U.S. Dist. LEXIS 175167,
2018 WL 4929397 (E.D.Wis. Oct. 11, 2018). . . . 23
United States v. Newsome,
322 F.3d 328 (4th Cir. 2003). . . . . . . . . . . . . . . . 17
United States v. Perry,
No. 2:18-cr-113, 2019 U.S. Dist. LEXIS
163219 (E.D. Va. Aug. 19, 2019) . . . . . . . . . . . . 11
United States v. Ruiz,
536 U.S. 622 (2002). . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Taylor,
312 F. Supp. 3d 170 (D.D.C. 2018) . . . . . . . . . . . 24
United States v. Tillard,
2020 U.S. Dist. LEXIS 1539, 2020 WL 57198,
(W.D.N.Y. Jan. 6, 2020) . . . . . . . . . . . . . . . . . . . 23
Wearry v. Cain,
136 S. Ct. 1002 (2016). . . . . . . . . . . . . . . . . . . . . 15
Statutes
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Rules
Supreme Court Rule 29.6. . . . . . . . . . . . . . . . . . . . . . ii
Constitutional Provisions
U.S. Const. amend. VII . . . . . . . . . . . . . . . . . . . . . . . 9
U.S. Const. amend. VII . . . . . . . . . . . . . . . . . . . . . . . 9

1
PETITION FOR A WRIT OF CERTIORARI
The Petitioner respectfully requests that a Writ of
Certiorari be issued to review the decisions of the
Circuit Court of Mississippi for Tishomingo County,
and the Mississippi Supreme Court on appeal, finding
that Mr. Turner’s due process rights were not violated
pursuant to Brady v. Maryland or Arizona v.
Youngblood.
OPINIONS BELOW
The June 17, 2021 decision from the Mississippi
Supreme Court can be found at Turner v. State, No.
2019-KA-01724-SCT, 2021 Miss. LEXIS 157 (June 17,
2021) and is reproduced in the Appendix (“Pet. App.
1a”) at Pet. App. 1a.
BASIS FOR JURISDICTION IN THIS COURT
The Supreme Court of Mississippi affirmed the
decision of the Mississippi Circuit Court of Tishomingo
County on June 17, 2021. (Pet. App. 1a). This Court
has jurisdiction pursuant to statutory provision 28
U.S.C. § 1254(1) to review on writ of certiorari the
decision of a state Supreme Court. This matter brings
questions of law that are unsettled.
In Grable & Sons Metal Products, Inc. v. Darue
Eng’g & Mfg, 545 U.S. 308 (2005), this Court
articulated a standard for federal question jurisdiction.
The federal issue must be “actually disputed and
substantial,” and it must be one that the federal courts
can entertain without disturbing the balance between
federal and state judicial responsibility. Id. at 314.
Here, that question is whether the Mississippi

2
Supreme Court erred in finding that Mr. Turner’s due
process rights were not violated pursuant to the
standard found in Brady v. Maryland.
STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1254
Cases in the courts of appeals may be reviewed
by the Supreme Court by the following methods:
(1) By writ of certiorari granted upon the
petition of any party to any civil or criminal
case, before or after rendition of judgment or
decree;
(2) By certification at any time by a court of
appeals of any question of law in any civil or
criminal case as to which instructions are
desired, and upon such certification the
Supreme Court may give binding instructions or
require the entire record to be sent up for
decision of the entire matter in controversy.

3
STATEMENT OF THE CASE
A. Bringing the Claims to Federal Court.
On September 23, 2019, the Mississippi Circuit
Court of Tishomingo County found Petitioner not guilty
of one count of aggravated assault upon a lawenforcement officer (Count I) and guilty of one count of
failing to stop a motor vehicle pursuant to the signal of
a law-enforcement officer (Count II), two counts of
aggravated assault upon a law-enforcement officer
(Counts III and IV) and one count of possession of a
firearm by a felon (Count V). (Pet. App. 1a). Petitioner
then motioned for J.N.O.V. or, in the alternative, a new
trial. (Pet. App. 1a). That motion was subsequently
denied. (Pet. App. 43a). Petitioner then filed an appeal
with the Supreme Court of Mississippi on July 29,
2020. (Pet. App. 1). That petition was denied on June
17, 2021. (Pet. App. 1).
Petitioner now timely files this petition for a Writ of
Certiorari with the United States Supreme Court.
B. Concise Statement of Facts Pertinent to
the Questions Presented.
On May 3, 2018, professional logger Brian Turner
left work after a thirteen-hour shift, intending to
return to his home in Tishomingo County, Mississippi.
However, on his way home, Mr. Turner was confronted
with a safety checkpoint consisting of a police
roadblock manned by several officers. This roadblock
was not previously advertised in the news media or on
any road signs, and Mississippi Highway Patrolman
Derick Earnest later testified at trial that—to an
average motorist—it would likely have been

4
indistinguishable from a traffic accident. (Pet. App.
45a).
Upon seeing the roadblock, Mr. Turner took a left
turn into a nearby parking lot and began traveling
south. (Pet. App. 3a). Although the officers gave
inconsistent testimony regarding the turn at trial, a
consensus seemed to emerge that Mr. Turner’s actions
were “unusual” but not illegal. (Pet. App. 80a).
Tishomingo County Sherriff’s Deputy Jason Moore
decided to follow Mr. Turner and ultimately initiated a
stop after realizing that Mr. Turner’s tags were
expired, and his vehicle lacked tag lights. (Pet. App.
3a). Although Deputy Moore did not detect the odor of
drugs or alcohol, he told Mr. Turner to exit the vehicle.
(Pet. App. 81a-82a).
At this point, the testimony provided by Deputy
Moore and that provided by Mr. Turner begin to
diverge. Moore claims that as he approached the
vehicle, Mr. Turner became irate. (Pet. App. 3a).
Deputy Moore claims that he drew his taser and told
Mr. Turner to exit the vehicle, intending to arrest him
for disorderly conduct. (Pet. App. 4a). Turner claims
that Moore drew his firearm and pointed it at him.
Both parties agree that this is when Mr. Turner reentered his vehicle and left the scene with Moore in hot
pursuit. (Pet. App. 4a).
Mr. Turner made a U-turn and began traveling the
other direction. The two parties subsequently crashed
into each other’s vehicles. (Pet. App. 4a). At trial,
Turner maintained that Moore rammed his driver’s
side vehicle in an attempt to end the chase. (Pet. App.
13a). However, Deputy Moore asserted that Turner

5
intentionally crashed into his vehicle, resulting in Mr.
Turner’s being charged with aggravated assault on an
officer through the use of an automobile. (Pet. App.
13a). In any event, Turner was found not guilty of this
charge at trial. (Pet. App. 1a).
A shootout then ensued between Mr. Turner on one
side and Officers Moore and James Guthery on the
other, the latter of whom arrived at the scene shortly
after the collision. (Pet. App. 4a). Predictably, each side
claims that the other initiated the shootout either way,
Mr. Turner escaped. (Pet. App. 5a). Believing that his
life was in danger, Turner returned home and obtained
another firearm and a bulletproof vest. (Pet. App. 96a).
Turner then called the Mississippi Bureau of
Investigation (“MBI”) before traveling to Tennessee.
(Pet. App. 96a). Turner was arrested the next day
without incident. (Pet. App. 4a-5a).
Claiming that it would substantiate his version of
events, Mr. Turner repeatedly asked the MBI to obtain
both the body camera footage from Deputy Moore and
the dash cam footage from Trooper Earnest’s highway
patrol vehicle. (Pet. App. 95a-96a). Body cameras are
required for all on-duty officers pursuant to the
Belmont Police Department policy. (Pet. App. 65a).
Although the Tishomingo County Sheriff’s
Department and the Belmont Police Department
confirmed that both Moore and Guthrey had been
issued body cameras on the night in question, the MBI
never obtained the body cameras—nor the dashcam
footage—for independent review. (Pet. App. 29a-30a).
Neither Moore not Guthery were ever interviewed by
the MBI. (Pet. App. 66a-67a).

6
C. Procedural History
On October 9, 2018, Turner was indicted for one
count of failure to stop, one count of aggravated assault
of a law-enforcement officer through the use of an
automobile, two counts of aggravated assault of a lawenforcement officer through the use of a deadly
weapon, and one count of felon in possession of a
firearm. (Pet. App. 2a). Trial took place in the
Mississippi Circuit Court of Tishomingo County.
On January 22, 2019, Turner filed a Motion to
Obtain Dash Camera and Body Camera Surveillance,
seeking an order directing the State to produce
a copy of any and all audio, video, digital or
electronic copy of any type of audio or video
recording that was made by the Mississippi
Highway Safety Patrol, the Belmont Police
Department, and or the Tishomingo County
Sheriff, or his deputies, to include, but not
limited to, the dashboard camera footage from
the aforementioned police patrol cars, or any
other police patrol car, at the time in question,
together with body camera footage from any
officer involved herein, to include: Trooper Derek
Earnest, Tishomingo Deputy Jason Moore,
Belmont Officer James Guthery, and Belmont
Officer Randy Cornilson.
(Pet. App. 6a). The Tishomingo County Sheriff’s
Department and the Belmont Police Department
confirmed that Moore and Guthery had been issued
body cameras on the night of the shootout. (Pet. App.
63a-82a). In response, the trial court ordered the State;

7
to provide all evidence, including dash cam
video, that they have in their possession or
through reasonable means of investigation can
uncover. . . . I am ordering that the State make
available any and all Brady material, and you’ll
have an opportunity to cross-examine any and
all witnesses that you wish to call at the
appropriate time.
(Pet. App. 6a). The footage was never provided.
On October 2, 2019, Mr. Turner filed his Motion for
Judgment Not Withstanding the Verdict. (Pet. App. 2a3a). The jury ultimately found Mr. Turner a) not guilty
of aggravated assault of a law-enforcement officer
through the use of an automobile, and b) guilty on all
four other counts. (Pet. App. 3a-4a). The Circuit Court
entered judgment against Mr. Turner on October 8,
2019 and denied his Motion for J.N.O.V. on October 14
of the same year. (Pet. App. 43a).
Mr. Turner filed an appeal with the Supreme Court
of Mississippi on July 29, 2020, raising the following
issues; (I) insufficient evidence to support his two
convictions for aggravated assault of a law-enforcement
officer through the use of a deadly weapon;
(II) admission of improper lay-opinion evidence;
(III) the constitutionality of the roadblock;
(IV) admission of improper statements by the District
Attorney regarding Turner’s decision to not call a
witness; (V) the failure of the circuit court to obtain
body- and dash-camera footage from Officers Moore
and Guthery; and (VI) the admission of a scaled
drawing at trial that was not previously provided to the
defense. See (Pet. App. 1a-42a).

8
On June 17, 2021, the majority of the Mississippi
Supreme Court held that Mr. Turner’s claims lacked
merit. (Pet. App. 1a-42a). The lone dissent—penned by
Presiding Justice King—found that the trial court
committed reversible error when it allowed the
prosecution to present improper expert-opinion
testimony. (Pet. App. 33a-42a).
This Petition for a Writ of Certiorari follows.

9
REASONS TO GRANT THIS PETITION
I.

This Court Should Find that The
Mississippi Supreme Court Erred When It
Upheld the Judgment of the Circuit Court
Despite the State Having Withheld
Important Exculpatory Evidence from Mr.
Turner Under Brady v. Maryland

This Court should grant Mr. Turner’s Petition for a
Writ of Certiorari on the grounds that Mr. Turner’s due
process rights were violated by State’s refusal to
produce exculpatory evidence. Since the Supreme
Court’s landmark decision in Brady v. Maryland,
precedent dictates that the suppression—by the
prosecution—of evidence favorable to the accused is
sufficient in and of itself to constitute a denial of due
process. Brady v. Maryland, 11 373 U.S. 83, 87 (1963)
(citing United States ex rel. Almeida v. Baldi, 195 F.2d
815, 820 (3d Cir. 1952)).
Violations of the Brady doctrine are violations of
Petitioner’s Fifth and Sixth Amendment rights to due
process and a fair trial. See U.S. Const. amend. VII,
U.S. Const. amend. VI. In the words of this Court; “the
Fifth and Sixth Amendments provide, as part of the
Constitution’s ‘fair trial’ guarantee, that defendants
have the right to receive exculpatory impeachment
material from prosecutors.” United States v. Ruiz, 536
U.S. 622, syllabus (2002) (citing Brady, 373 U.S. 83 at
87).
There are three key elements of a Brady violation:
(1) evidence at issue must be favorable to the accused
because it is exculpatory or impeaching; (2) evidence

10
must have been willfully or inadvertently suppressed
by the State; and (3) prejudice ensued. Skinner v.
Switzer, 562 U.S. 521, 536, 131 S.Ct. 1289, 179 L.Ed.2d
233 (2011) (citing Strickler v. Greene, 527 U.S. 263,
281-82, 119 S.Ct. 1936, 144 L.Ed.2d 286 (1999)).
A. The Evidence at Issue is Favorable to
Mr. Turner Because it is Both
Exculpatory and Impeaching
This Court should find that the Mississippi
Supreme Court erred when it found that the State did
not violate Mr. Turner’s due process rights under
Brady v. Maryland. As stated above, the evidence in
question must be “exculpatory or impeaching.” See
Skinner, 562 U.S. at 536. The body camera footage
withheld by the State is both exculpatory and
impeaching.
i. The body camera footage and dash
camera footage constitute
exculpatory evidence.
This Court should find that the video evidence from
Officers Moore and Guthery’s body cameras, as well as
from Officer Moore’s dash cam, constitutes exculpatory
evidence under Brady. This Court has held that the
defendant shows a Brady violation by demonstrating
that “the favorable evidence could reasonably be taken
to put the whole case in such a different light as to
undermine confidence in the verdict.” Kyles v. Whitley,
514 U.S. 419, 434-435 (1995).
Various courts in a myriad of jurisdictions have held
that video evidence is generally considered exculpatory
so long as its value is not purely speculative. See, e.g.,

11
Hartfield v. City of Urbana, No. 21-2045, 2021 U.S.
Dist. LEXIS 134915 (C.D. Ill. July 19, 2021), United
States v. Perry, No. 2:18-cr-113, 2019 U.S. Dist. LEXIS
163219 (E.D. Va. Aug. 19, 2019), State v. Rogers, 2020
UT App 78, 467 P.3d 880 (Ct. App. 2020).
The exculpatory value of the footage from the body
and dash cameras is hardly speculative. Mr. Turner’s
defense rested primarily a self-defense claim
predicated on Officer Moore’s status as the initial
aggressor. Even prior his arrest1, Mr. Turner has
consistently claimed that he was not the initial
aggressor in the confrontation between him and Officer
Moore, and that the Mississippi Highway Patrol were
“out to kill him.” (Pet. App. 13a).
Turner’s behavior immediately after the shootout
strongly indicates that he feared for his life. Mr. Turner
called the Mississippi Bureau of Investigation following
the shootout to inform them of the night’s events and
beg them to investigate the circumstances of the
shootout. (Pet. App. 96a-97a). Turner then fled out of
state, where he allowed himself to be arrested without
incident by Tennessee police. (Pet. App. 5a-6a).
Additionally, the jury found Mr. Turner not guilty of
Aggravated Assault on an Officer with a Vehicle after
applying the self-defense instruction provided by the
trial judge. (Pet. App. 1a).
Consequently, this Court should find that the video
evidence from Moore and Guthery’s body cameras and

1

See Mr. Turner’s Phone call to the MBI; (Pet. App. 96a).

12
the dash cam footage from Officer Moore’s patrol
vehicle constituted exculpatory evidence.
ii. The body camera footage and dash
camera footage constitute
impeaching evidence.
This Court has held that “‘when the reliability of a
given witness may well be determinative of guilt or
innocence,’ nondisclosure of evidence affecting
credibility falls within the general rule enunciated in
Brady.” See State v. McGuire, 2018-Ohio-1390 ¶ 22 (Ct.
App.) (quoting Giglio v. United States, 405 U.S. 150,
154, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972), citing Napue
v. Illinois, 360 U.S. 264, 269, 79 S.Ct. 1173, 3 L.Ed.2d
1217 (1959)).
Due to the State’s failure to provide the video
evidence at trial, Mr. Turner was deprived of a
meaningful opportunity to cross examine Officers
Moore and Guthery using potentially exculpatory
evidence. Virtually all the important interactions
constituting the factual basis of this case should have
been recorded by either; the a) the body cameras worn
by Officers Moore and Guthery, or; b) Officer Moore’s
dash camera. This video evidence would have been
used to impeach the Officers’ testimony in a way that
no other evidence is capable of.
As a result, this Court should find that the video
evidence was a particularly invaluable form of both
exculpatory and impeachment evidence.

13
B. The Evidence at Issue was Willfully or
Inadvertently Suppressed by the State
This Court should find that the video evidence
contained in Officers Moore and Guthrey’s body
cameras and Officer Moore’s dash camera was
suppressed by the state. The standard this Court has
historically used to determine the constitutionality of
the suppression turns on the materiality of the
evidence suppressed. See Brady, 373 U.S. 83 at 87. Put
simply, when the evidence sought is material to the
defendant’s guilt or punishment, whether the State
acted in good or bad faith is immaterial;
[the] suppression by the prosecution of evidence
favorable to an accused upon request violates
due process where the evidence is material
either to guilt or to punishment, irrespective of
the good faith or bad faith of the prosecution.
Id.
Regardless of whether this Court finds that the
video evidence was suppressed by the State in bad
faith, it should still hold that Mr. Turner’s due process
rights were violated under Brady v. Maryland due to
the objectively material nature of the evidence.
At trial, the Circuit Court gave the following
instruction to the jury;
As to any count, if you find from the evidence
that Brian Russell Turner acted in self-defense,
then you must find him not guilty in such count.

14
If, however, you find from the evidence in this
case beyond a reasonable doubt that the State
has proven the necessary elements of aggravated
assault and that the defendant did not act in
necessary self-defense, you should find the
defendant guilty as charged.
The intent or purpose for an act is a question to
be determined by you, the jury, from
consideration of the evidence presented in this
case. In doing so, intent can be inferred from the
defendant’s actions, conduct, expressions, and
from the circumstances surrounding the charged
crime.
An aggressor is not entitled to assert the defense
of self-defense. As to any count, if you find that
Brian Russell Turner was the initial aggressor
in the series of events, then Brian Russell
Turner may not claim that he acted in selfdefense.
See Turner, No. 2019-KA-01724-SCT at *11-13 (June
17, 2021) (Pet. App. 12a).
The trial court informed the jury in no uncertain
terms that, if they found that Mr. Turner was not the
initial aggressor, then he was to be found not guilty.
The introduction of the video evidence would have laid
this question to rest permanently. As a result, this
Court should find that the State’s suppression of the
video footage constituted a denial of Mr. Turner’s due
process rights regardless of whether the Prosecution
acted in bad faith.

15
C. Mr. Turner was Prejudiced by the
Withholding of the Relevant Evidence
This Court should find that the Prosecution’s
withholding of the relevant video evidence constituted
a denial of due process that prejudiced Mr. Turner at
trial. “The question is not whether the defendant would
more likely than not have received a different verdict
with the evidence, but whether in its absence, he
received a fair trial, understood as a trial resulting in
a verdict worthy of confidence.” State v. Porter, 145
Haw. 262, 7, 450 P.3d 1287 (Ct. App. 2019) (citing
Whitley, 514 U.S. at 434-35, United States v. Bagley,
473 U.S. 667, 682 (1985)).
When establishing the parameters of the Brady
doctrine, the Supreme Court has held that “[the]
failure to turn over exculpatory information violates
due process ‘if there is a reasonable probability that,
had the evidence been disclosed to the defense, the
result of the proceeding would have been different.’”
Wearry v. Cain, 136 S. Ct. 1002, 1008 (2016) (citing
Whitley, 514 U.S. at 433-434, Bagley, 473 U.S. at 682).
The State’s suppression of the video evidence
severely prejudiced Mr. Turner. Mr. Turner’s primary
defense at trial was the fact that he was acting in selfdefense. The case ultimately hinged on whether the
jury found that Mr. Turner or Officer Moore was the
primary aggressor. As noted above, a jury instruction
was given to this effect. (Pet. App. 9a-11a).
However, the lack of video evidence presented to the
jury forced them to decide between two alternative
accounts of what transpired that night. On one

16
claim—Assault on an Officer With a Vehicle—the jury
decided in favor of the Petitioner. On the other counts,
they did not. (Pet. App. 1a). Had the relevant evidence
been brought to trial, rather than suppressed by the
State, there is a reasonable probability that the result
of the proceeding would have been different. In its
absence Mr. Turner cannot be said to have received a
fair trial, and consequently this Court should grant the
petition he has presented here today.
II.

Alternatively, This Court Should Find that
The Mississippi Supreme Court Erred
When It Upheld the Judgment of the
Circuit Court Despite the State Having
Withheld Important Exculpatory Evidence
from Mr. Turner Under Arizona v.
Youngblood

Should this Court find that the video evidence was
not material under the Brady standard, it should
nevertheless grant this petition pursuant to the
standard found in Arizona v. Youngblood. The
suppression of evidence—regardless of whether it has
been proven to be materially useful—is still considered
a due process violation when the evidence was
suppressed by the Prosecution in bad faith. Arizona v.
Youngblood, 488 U.S. 51, 58, 109 S. Ct. 333, 102 L. Ed.
2d 281 (1988).
Pursuant to Youngblood, this Court should find that
the Mississippi Supreme Court erred in affirming the
decision of the Circuit Court. It is well-settled law that
[the] due process clause sometimes protects
defendants from the Government’s loss of

17
potentially exculpatory evidence. In order to
demonstrate a due process violation from its
loss, the defendant must establish that (1) the
evidence was at least potentially exculpatory;
(2) the exculpatory value was apparent before
the evidence was lost or destroyed; (3) the
evidence was lost or destroyed in bad faith; and
(4) no comparable evidence could be obtained by
reasonably available means.
Perry, No. 2:18-cr-113, 2019 U.S. Dist. LEXIS 163219
at *8 (citing Youngblood, 488 U.S. at 57-58; United
States v. Newsome, 322 F.3d 328, 334 (4th Cir. 2003);
Holdren v. Legursky, 16 F.3d 57, 60 (1994)).
A. The Video Evidence Is
Potentially Exculpatory

At

Least

The video evidence contained on the body and dash
cameras was at the very least potentially exculpatory.
This point was previously addressed in Section I(a)(i)
of this petition, so it will not be repeated at length here.
However, it is relevant to note that the evidence
sought by Mr. Turner could potentially prove or
disprove his claim that Officer Moore was the initial
aggressor. Had Moore been the initial aggressor, Mr.
Turner would not have been guilty of the aggravated
assault offenses for which he is currently imprisoned.
Moreover, Mr. Turner’s account of the nights events is
supported by circumstantial evidence, i.e., his behavior
following the shootout. (Pet. App. 95a-98a).
The simple fact of the matter is that had the body
and dash cam footage corroborated Mr. Turner’s
version of events—hardly an unreasonable

18
proposition—he would not be in prison today. As a
result, this Court should find that the video evidence
was, at the very least, potentially exculpatory.
B. The Exculpatory Value of the Evidence
was Apparent Before the Evidence was
Lost or Destroyed
Furthermore, the exculpatory value of the evidence
was apparent before the evidence was lost or destroyed.
When an alleged offense is predicated entirely on
eyewitness testimony, it strains credulity to assume
that the value of video evidence depicting said offense
would not be immediately apparent. As addressed in
Section I(a)(i)-(ii), the video evidence could be used for
both exculpatory and impeachment purposes. As a
result, this Court should hold that the exculpatory
value of the evidence was apparent long before the
evidence was lost or destroyed.
C. The Video Evidence was
Destroyed in Bad Faith

Lost

or

This Court should find that the State’s refusal to
make the various body and dashboard cameras
belonging to Officers Moore, Guthery, and Earnest
available to the defense constituted an act of bad faith.
The Mississippi Supreme Court held in Hentz v. State,
489 So.2d 1386 (Miss.1986), that in criminal cases
“prosecuting attorneys should make available to
attorneys for defendants all such material in their files
and let the defense attorneys determine whether or not
the material is useful in the defense of the case.” Id. at
1388 (emphasis added).

19
At trial, Officers Moore and Guthery both admitted
that their respective departments required them to
wear and use body cameras. (Pet. App. 63a, 83a).
Furthermore, Officer Guthery even testified that he
was in possession of a body camera during his
interactions with Mr. Turner. (Pet. App. 64a). The
Tishomingo County Sheriff’s Department records state
that Officer Moore was provided a body camera on the
night in question. (Pet. App. 83a).
However, both officers’ cameras allegedly failed to
produce any valuable footage of Mr. Turner’s alleged
offense. Officer Guthery claims that his camera was
located on the passenger’s seat of his vehicle. (Pet. App.
64a). Officer Moore claims that his camera was never
actually checked out and remained in the Chief’s office,
in violation of protocol. (Pet. App. 83a).
The same excuse was used by the State to prevent
the Petitioner from examining the dashboard camera
in the vehicle driven by Trooper Earnest. The
Mississippi Highway Patrol, of which Trooper Earnest
was an employee, required dashboard cameras (Pet.
App. 51a). Nonetheless, Trooper Earnest claimed that
he had no dash camera footage from that night. (Pet.
App. 51a).
The State asks us to believe that, although all three
officers had cameras on their person or in their vehicle,
none of these cameras happened to be turned on at any
point during the roadblock, traffic stop, or subsequent
shootout. Regardless of the veracity of this claim, one
important fact remains; none of these excuses should
have prevented Officers Moore, Guthery, and Earnest

20
from providing their cameras to the defense for
inspection.
In its affirmance of the trial court’s decision, the
Mississippi Supreme Court explicitly acknowledged
that “the circuit court ordered the State ‘to provide all
evidence, including dash cam video, that they have in
their possession or through reasonable means of
investigation can uncover.’” (Pet. App. 29a).
In response to this order, both the Belmont Police
Department and the Tishomingo County Sheriff’s
Department merely asserted that no relevant footage
existed on those cameras. The Circuit Court held that
the State’s claim that footage was “not available”
satisfied the State’s burden of production under Hentz
and denied Turner’s appeal. (Pet. App. 29a-30a).
The Mississippi Supreme Court’s holding clearly
violates the spirit and intent of Hentz, as well as it’s
clear language. The Hentz court clearly stated that it is
the prosecution’s duty to turn over all relevant
materials and “let the defense attorneys determine
whether or not the material is useful.” Hentz, 489 So.2d
at 1388. As a result, this Court should grant Turner’s
petition and provide him with a hearing to plead his
claims.
D. No Comparable Evidence Could be
Obtained by Reasonably Available
Means
Due to its status as a minute-by-minute record of
the night’s events, the video evidence is invaluable to
the case at hand. No comparable evidence exists, let
alone could be obtained by reasonable means. The

21
initial stop, chase, and shootout were all conducted late
at night. If other eyewitnesses saw any of the events in
question, they were not discovered by either party and
no foundation has been presented that would lead one
to assume their existence.
In the absence of the video evidence contained on
Officers Moore and Guthery’s body cameras and Officer
Moore’s dash camera, the trial was forced to proceed on
the basis of eyewitness testimony and forensic analysis.
The accuracy and veracity of that evidence has been
challenged repeatedly in lower courts and will not be
addressed in this petition. See (Pet. App. 9a-29a).
However, it should not be a point of controversy to
assume that none of that evidence is comparable in
scope and reliability to first-hand video evidence.
This Court should find that the failure of the State
to provide the physical body cameras to the defense
constituted a denial of Mr. Turner’s due process rights.
If the State’s assertion that no footage was contained
on the cameras is true, then this issue would have been
resolved and this petition would likely not be before
this Court today. Unfortunately, the State opted for an
evasive strategy and the Mississippi Supreme Court
found that that strategy was reasonable. As a result,
this Court should grant Mr. Turner’s petition.

22
III.

This Court Should Grant Mr. Turner’s
Petition to Clarify the Legal Implications
of a Law Enforcement Officer’s Willful
Decision Not to Utilize Their State-Issued
Body Camera in Contravention of Relevant
Department Procedures

This Court should grant Mr. Turner’s petition so
that it may inject some much-needed clarity into the
debate concerning the vital role of body cameras in 21st
century policing. Mr. Turner would ask this Court to
find that an on-duty officer’s willful decision not to
utilize a body camera provided to him by his
department establishes a rebuttable presumption that
the officer acted in bad faith under Brady and
Youngblood.
It is true that body-worn cameras are a relatively
new innovation in the field of policing. Introduced in
response to various concerns regarding police
misconduct and accountability, body cameras are
intended to serve as a valuable record of the
interactions between law enforcement officials and
citizens.
In the aftermath of a series of high-profile officerinvolved shootings, police departments across the
country have introduced policies requiring the use of
body cameras by police officers. The Belmont Police
Department—of which Officer Guthery was an
employee—was one of the agencies that required
officers to wear body cameras while on-duty. (Pet. App.
65a-66a). Body cameras were also utilized by the
Tishomingo County Police Department. Unfortunately,

23
the application of these policies has not been as cut and
dry as advocates had likely hoped.
As a result of their novelty, significant discrepancies
exist in the case law relating to body cameras. The
District Court of the District of Columbia recently
found that when officers fail to activate their cameras
in violation of department policy, they have “deprived
the Court from reviewing the best evidence available.”
United States v. Gibson, 366 F. Supp. 3d 14, 19 (D.D.C.
2018). The Gibson Court seemed to place substantial
weight on the department policy relating to the use of
body cameras. See Id. at n. 3.
On the other hand, other courts seem to have found
that failure to utilize body cameras is not a significant
error, even if in violation of department policy. See
United States v. Griffin, 2018 U.S. Dist. LEXIS 175167,
2018 WL 4929397, at *4 (E.D.Wis. Oct. 11, 2018) (court
declined to suppress evidence as “fruit of the poisonous
tree” despite the officer’s “habit of not activating his
body camera as soon as called for under the
department’s policy”), United States v. Tillard, 2020
U.S. Dist. LEXIS 1539, 2020 WL 57198, at *6-7
(W.D.N.Y. Jan. 6, 2020) (court declined to find bad
faith in part because both officers “had their cameras
for thirty working days or less.”).
Nevertheless, a consistent theme in these decisions
has been an understanding that the ubiquity of body
cameras raises new and challenging implications under
evidentiary law. Although ultimately declining to find
bad faith, the Nevada District Court held that

24
‘body cameras are new devices that officers ...
are still getting acclimated to using’ because
they are ‘not yet accustomed to having all of
their discussions permanently memorialized’ . . .
[as] BWCs2 become more pervasive, and their
use more ingrained in the culture and day-today routines of police officers, the Court cannot
say that the absence of video evidence in
violation of internal police procedures can never
be suspicious or suggestive of misconduct.
United States v. Brown, No. 2:17-cr-00058-JCM-VCF-1,
2017 U.S. Dist. LEXIS 215420 at *51-52 (D. Nev. Aug.
14, 2017). See also United States v. Taylor, 312 F.
Supp. 3d 170 (D.D.C. 2018), United States v. AguirreCuenca, No. 3:19-cr-00141, 2020 U.S. Dist. LEXIS
197320 (W.D.N.C. July 17, 2020).
At trial, Officer Guthery was questioned by the
defense regarding the applications and value of body
cameras to the policing profession;
Q. In other words . . . if someone accused an
officer of doing something wrong, it’s possible
that that body camera footage could substantiate
what the officer says or what he did, right . . .
isn’t that correct?
A. That’s correct.
Q. It could also . . . contradict what any witness
might say, correct?
A. That’s true.

2

Body-Worn Cameras.

25
Q. It could prove that defendants were properly
advised of their Miranda rights, couldn’t it?
A. It could.
Q. It could highlight
misconduct, couldn’t it?

and

prove

police

A. It sure could.
Q. It could also prove the actual innocence of a
couldn’t it, sir?
A. It could do that, too.
(Pet. App. 65a). In this exchange, Officer Guthery
demonstrated a clear understanding of the important
role body cameras are meant to play in the work of a
police officer.
Officers Moore and Guthery were both required to
wear body cameras during their interactions with
civilians. (Pet. App. 65a-66a, 83a). In fact, the Belmont
County Police Department has explicit guidelines
requiring the use of body cameras, as Officer Guthery
admitted to the defense at trial;
Q. The Belmont Police Department has a body
camera policy, do they not?
A. They do.
Q. And you’re familiar with that policy, aren’t
you, sir?
A. Somewhat.

26
Q. How long did you work as an officer at the
Belmont Police Department?
A. Eight years.
Q. During that time did you familiarize yourself
with the body-worn camera policy?
A. Once we got them, yes.
Q. And you were issued a body camera, were you
not?
A. We’re not issued any, not as our personal or
anything like that. You just get one when you go
in. They’re just plugged up on the counter.
Q. Well, you’re required to, aren’t you?
A. Yeah. It says we -- you know, we need to have
it, but no one has ever been written up for not
having it.
...
Q. So it’s basically -- you’re saying it’s just left to
officer’s discretion whether you want to wear the
body camera or not?
A. Just about it. Just about it or it either is or it
isn’t. Pretty much it is. If I didn’t want to get
one, I didn’t get one.
Q. Were you in charge of making that decision?
A. No, sir, I wasn’t.
Q. Who’s in charge of making those type
decisions?

27
A. The chief.
(Pet. App. 65a-66a) (edited for clarity). However,
Officer Guthery subsequently testified that he had
chosen not to utilize his body camera at any point
during the evening—an evening where he was on duty,
armed, and tasked with maintaining the peace;
Q. Isn’t it true, sir, that you do not have any
body-worn camera video from the night in
question?
A. No, sir, no video.
Q. You did not have your body-worn camera
activated at the time of the events in question,
did you?
A. No, sir, it was not on my person.
Q. You did not have—not only was it not on your
person and was it not activated at the events in
question, the body-worn camera was not on or
activated at the roadblock, was it?
A. No, sir. We just don’t wear them for
checkpoints.
(Pet. App. 68a) (edited for clarity).
Additionally, Officer Moore testified at trial
that—in flagrant violation of department policy—he
failed to utilize a body camera on the night of the
shooting as well;
Q. As we sit here today in 2019, you do not have
video of this incident, do you?

28
A. No, sir.
Q. However, on May the 3rd, 2018, you testified
that the Tishomingo County sheriff’s office had
utilized body cams, correct?
A. Yes, sir.
Q. In fact, they had issued you a body camera?
A. Yes, sir.
Q. And you’ve testified that your camera was in
Officer Marlar’s office?
A. Yes, sir.
...
Q. Isn’t it true you have nothing from a logbook
or any recording as to where your body cam was
on the night in question?
A. No, sir.
(Pet. App. 82a-83a) (edited for clarity).
As a result of what can only be either; 1) the
intentional suppression of the body camera evidence by
the State, or 2) Officer Moore’s willful decision to
violate Department Policy, potentially exculpatory
evidence, whose value was immediately apparent, was
lost or destroyed even though no comparable evidence
could be obtained by reasonably available means. See
Youngblood, 488 U.S. at 57-58.
To prevent further such due process violations, this
Court should embrace its status as the highest court in

29
the United States and provide guidance to the lower
Courts on the evidentiary status of body camera
footage. Mr. Turner is asking this Court to find that
when—in violation of Department policy—an officer
fails to utilize their government-issued body camera, a
rebuttable presumption is established that the
evidence contained on the camera was suppressed in
bad faith under the Brady and Youngblood standards.
CONCLUSION
For the foregoing reasons, this Petition for a writ of
certiorari should be granted.
Respectfully submitted,
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
(f) 407-622-1511
robertsirianni@brownstonelaw.com

Counsel for Petitioner
Dated: August 23, 2021.

